        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Office of Secure Transportation DC-9
Aircraft Refurbishment




DOE/IG-0815                           May 2009
                               Department of Energy
                                  Washington, DC 20585

                                         May 6, 2009


MEMORANDUM FOR THE SECRETARY



FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Office of Secure
                          Transportation DC-9 Aircraft Refurbishment"

BACKGROUND

The National Nuclear Security Administration's (NNSA) Office of Secure Transportation
(OST) maintains a fleet of seven aircraft to transport sensitive items, equipment and
security personnel. Based on increasing requirements for transporting components and
security personnel, OST decided to add a heavy transport aircraft to meet the
Department's weapons surety and emergency response missions. In 2004, as a
replacement following the sale of a portion of its fleet, OST acquired a DC-9 cargo
aircraft that had been excessed by the U.S. military. Prior to integrating the DC-9 into its
fleet, NNSA ordered a refurbishment of the aircraft. This refurbishment project was to
permit the aircraft to be certified to civil air standards so that it could transport passengers
for site visits, training and other travel. The NNSA Service Center (Service Center)
awarded a contract for the refurbishment of the aircraft in December 2004.

In recent years, the Office of Inspector General has addressed a number of issues relating
to the Department's aircraft management activities and services. As part of our ongoing
review process and because of the national security importance of its fleet of aircraft, we
conducted this review to determine whether OST had an effective and efficient aviation
management program.

RESULTS OF AUDIT

The Department had improved aspects of its aviation management program. Yet, our
review revealed problems with OST's aircraft refurbishment process. In OST's most
recent acquisition and refurbishment of the DC-9 aircraft, we found that cost increases of
about $1 million and four separate work stoppages associated with contract modifications
could have been avoided. Specifically,

    •   NNSA entered into a firm-fixed-price contract for the refurbishment even though,
        at the time of the award, it could not determine the extent of work or full cost
        necessary to complete the project; and,
                                              2


   •   Rather than using interim contracting instruments that could have permitted work
       to continue, officials suspended work for extended periods to negotiate changes to
       the original fixed-price contract as the extent of refurbishment work became
       known.

Knowledgeable Department officials informed us that although they advised the Service
Center that a firm-fixed-price contract was inappropriate for this project, the Service
Center determined that no other contracting option was possible. Prior to commencing
the refurbishment, Departmental aviation management officials advised NNSA that
because of the significant number of uncertainties with the project, they believed that a
time and materials contract would provide the flexibility necessary to monitor costs and
control performance. NNSA contracting officials, however, believed that the scope of
work was sufficiently defined to proceed with a fixed-price instrument. They also
believed that the refurbishment was a contract for a commercial item and concluded that
the Federal Acquisition Regulation required a fixed-price contract for this project.
However, as noted by aviation management officials and as confirmed by our review,
fixed-price contracts are not specifically required for refurbishment projects such as this.
In fact, other hybrid contracting options were available that would have allowed better
control over projects with significant unknowns such as this particular effort.

The lengthy refurbishment process to get the aircraft modified and certified to civil air
standards had a negative impact on OST's mission. Mission critical work by the OST was,
in some cases, curtailed. Approximately four years after the project began the aircraft had
not been certified to civil air standards, as originally planned. A contracting official
stopped / started work on four occasions to negotiate contract modifications rather than
using a non-definitized contracting arrangement that would have permitted work to
continue during negotiations. Additional issues associated with the work stoppages and
contract modifications increased project costs by approximately $1 million.

                          Fixed-Price Contracting Considerations

The issues raised in this report address the sensitive topic of fixed-price contracting. We
recognize that, in general, fixed-price contracts provide greater value to the Government
and that they minimize the cost to the taxpayer for a wide variety of commercial items
and other activities. Ensuring that the Department receives the best value from its
contracting activities is, in fact, critical to achieving the goals of the recently enacted
American Recovery and Reinvestment Act of 2009. However, fixed-price contracts are
not the most effective procurement instrument in certain situations. For the DC-9
refurbishment effort, there were so many uncertainties that a fixed-price instrument was
not in the Government's best interest. In our view, the refurbishment work effort should
have been segmented in such a way as to recognize the uncertainties yet to rely, to the
extent practical, on fixed-price principles. For example, contracting officials could have
used fixed-price contracts to acquire components, services or items for which a scope of
work could be adequately defined. For other portions of the work for which clearly
defined specifications were not available at the outset, a non-definitized contracting
                                            3


mechanism could have been used to bridge gaps between fixed-price segments and avoid
the extensive delays associated with the multiple contract modification negotiations that
occurred in this case.

                                 Response to IG Reports

In response to recommendations in our prior reports, the Department had taken steps to
centralize certain functions within its aviation management program. It established the
Office of Aviation Management to review aircraft operations, monitor costs and approve
acquisitions and disposals of aircraft. These positive steps were responsive to our
recommendations. However, with respect to aircraft acquisitions, additional action is
necessary to strengthen management controls and improve efficiency and effectiveness of
refurbishment efforts. Accordingly, we made recommendations in this report designed to
address the remaining weaknesses. Addressing these recommendations is critical in light
of future plans by OST to replace its entire fleet of DC-9 aircraft with 737s starting as
early as Fiscal Year 2010. These plans will likely require additional refurbishment
projects to bring these aircraft up to the specifications needed for OST to complete its
unique mission. If fully implemented, our recommendations should help the Department
avoid similar problems as it embarks on these additional planned refurbishment projects.

MANAGEMENT REACTION

NNSA generally agreed with the report, concurred with our recommendations and agreed
to take appropriate action. NNSA, however, continued to support its original contracting
decision and did not agree with what it viewed as the report's presumption that the scope
of the project was unknowable, thereby precluding development of more definitive
specifications and the use of a fixed-price contract.

As noted by the aviation experts we consulted, the full scope of the work required for this
refurbishment could not have been known until the aircraft was disassembled and fully
inspected. Our findings and the opinion of these experts are consistent with an internal NNSA
review of the refurbishment which concluded that the work required was not sufficiently defined
prior to the contract being awarded.

Management's summarized comments and our responses are contained in the body of the
report. Management's comments, in their entirety, are included as Appendix 3.

Attachment

cc: Office of the Deputy Secretary
    Office of the Under Secretary of Energy
    Chief of Staff
    Assistant Deputy Administrator for Secure Transportation, NA-15
    Program Manager, Office of Secure Transportation (OST), Albuquerque
    Director, Office of Management, MA-1
    Director, Office of Aviation Management, MA-30
AUDIT REPORT ON THE OFFICE OF SECURE
TRANSPORTATION DC-9 AIRCRAFT REFURBISHMENT

TABLE OF
CONTENTS


Aviation Management at the Office of Secure Transportation

Details of Finding…………………………………………………………………..1

Recommendations …………………………………….……………………………5

Comments…………………………………………………………………………..6


Appendices

1. Objective, Scope, and Methodology……………………………………………7

2. Prior Reports……………………………………………………………………9

3. Management Comments………………………………………………………..10
AVIATION MANAGEMENT AT THE OFFICE OF SECURE
TRANSPORTATION
Cost and Scope                 The National Nuclear Security Administration
Uncertainties                  (NNSA) entered into a fixed-price contract to
                               refurbish a DC-9 aircraft that it acquired from the
                               U.S. Navy even though it lacked sufficient
                               information to develop the full cost and scope of the
                               work necessary to complete the project. Because
                               the fixed-price contract was based on an uncertain
                               scope of work that was subject to change, time
                               consuming modifications to the original contract
                               had to be made as the extent of work necessary to
                               refurbish the aircraft became known. According to
                               aviation management officials, NNSA could have
                               avoided many of the extensive disruptions and
                               delays that plagued this project.

                                              Contract Uncertainties

                               The contract for the refurbishment of the DC-9
                               aircraft did not reflect the significant uncertainties
                               that were known to exist at the time it was awarded.
                               Normally, Federal procurement regulations indicate
                               that firm-fixed-price contracts should be awarded
                               when the scope of a project is well-defined and total
                               costs can be reasonably established. In the case of
                               this refurbishment, an initial independent cost study
                               estimated that the project would cost $3.25 million.
                               However, the limited scope of the cost study was
                               not sufficient to ascertain the full extent of the
                               refurbishment. Officials knew, in advance of the
                               award, that the scope of the refurbishment project
                               was uncertain and NNSA's Office of Secure
                               Transportation (OST) had estimated that the total
                               cost could be as much as $4.5 million. Despite the
                               uncertainties and the assumption that the cost could
                               be much higher, NNSA concluded that the scope of
                               work was sufficiently defined and awarded a firm-
                               fixed-price contract to an aircraft refurbishment
                               contractor for $2.4 million.

                               When the full extent of repairs and modifications
                               became known as the aircraft was disassembled and
                               inspected, officials were required to make a number
                               of modifications to the original contract. Aviation
                               management officials told us that they recognized
                               the full extent of refurbishment could not be known
                               until work began on components such as
                               replacement of engines, upgrades to the interior,
________________________________________________________________________
Page 1                                                   Details of Finding
                               removal of the auxiliary fuel system, corrosion
                               elimination and sheet metal replacement. In spite of
                               that knowledge, however, NNSA elected to use a
                               contracting method that was based on a specifically
                               defined scope of work. As a consequence, when an
                               issue that fell outside the work scope surfaced
                               during the project, modifications to the contract had
                               to be negotiated. Instead of using a non-definitized
                               work scope contract modification that would have
                               permitted work to continue during negotiations,
                               NNSA chose to stop the refurbishment effort on
                               four separate occasions. Only after the new scope
                               of work and additional costs were approved was the
                               refurbishment contractor permitted to resume work.

                                   Alternative Contracting Methods Available

                               According to aviation officials within the Office of
                               Aviation Management (OAM) and OST who were
                               experienced with aircraft refurbishments,
                               modifications to the contract and the corresponding
                               delays would not have been necessary with a time
                               and materials type of contract. Based on our
                               conversations with OAM and OST officials, we
                               learned that they had advised the Service Center
                               that a firm-fixed-price contract was inappropriate
                               for this project. OAM indicated that a time and
                               materials contract could have allowed NNSA to
                               challenge every task being accomplished on the
                               aircraft. According to OST, once each task and
                               parts order is approved under a time and materials
                               contract, work can begin immediately. If the cost of
                               a part or a service appears too high, it can be
                               negotiated on the spot. With a time and materials
                               contract or the use of a non-definitized contract
                               modification, OST indicated that it could have
                               avoided the approximately eight months of delays
                               that were encountered just in processing the four
                               contract modifications. Additionally, disruptions in
                               the flow of work from stopping and re-starting work
                               likely resulted in additional delays.

Consideration of Other         Cost increases and delays associated with the
Contracting Methods            refurbishment of the DC-9 occurred, in part, because
                               officials at the NNSA Service Center did not fully
                               evaluate available contracting methods or heed the
                               advice of the Department's aviation experts.
________________________________________________________________________
Page 2                                                   Details of Finding
                               Although officials in the Service Center believed
                               that a fixed-price contract was their only option,
                               other contract types or a combination of different
                               types of contracts are allowed under the Federal
                               Acquisition Regulation (FAR) when a reasonable
                               basis for firm pricing does not exist. Additionally,
                               while officials knowledgeable of aircraft
                               refurbishment projects believed and specifically
                               advised NNSA that a time and materials contract
                               would better ensure the success of this project, the
                               Service Center believed that it did not have any
                               other alternatives.

                                               Contracting Options

                               Service Center officials based their opinion that a
                               fixed-price contract was necessary on the FAR,
                               which states that contracts for commercial items
                               should be fixed-price. According to the FAR, a
                               firm-fixed-price contract is suitable for acquiring
                               commercial items when prices can be established at
                               the outset, such as when there have been prior
                               purchases of similar items or when uncertainties can
                               be identified and reasonable estimates of their cost
                               impact can be made. Firm-fixed-price contracts are
                               tailored toward instances where there is a specific,
                               defined scope of work and a benchmark to establish
                               that the price is reasonable. In this case it turned
                               out that a firm-fixed-price contract type was not
                               optimum for the numerous unknowns associated
                               with an aircraft refurbishment effort, as evidenced
                               by the award of four modifications to the original
                               contract for the DC-9 refurbishment.

                               In this case, the contract in question was for a
                               refurbishment, not the purchase of a commercially
                               available item, and other options were available.
                               Because it was a refurbishment, prices could not be
                               reasonably estimated at the time of the award. Only
                               after the project was started, panels and components
                               were removed, and the interior structure of the
                               aircraft was exposed could uncertainties be
                               resolved, additional components and/or repairs be
                               identified and cost estimates made. In situations
                               such as this, Department of Energy contracting
                               officials outside of NNSA indicated that the FAR is
                               flexible with respect to contract types. Time and
________________________________________________________________________
Page 3                                                   Details of Finding
                               materials or hybrid contracts are allowed,
                               instruments which would have provided OST with
                               the opportunity to issue small, controllable and
                               measureable task orders for specific pieces of the
                               refurbishment effort and thus avoid the lengthy
                               contract modification process. Even with a fixed-
                               price contract, officials could have used available
                               contracting flexibilities to avoid work stoppages
                               during negotiations for contract modifications.

                                                 Expert Opinions

                               Despite recommendations to the contrary, NNSA
                               believed that the FAR did not allow for other
                               options. Officials from OAM and OST understood
                               that there were too many uncertainties for a firm-
                               fixed-price contract and concluded that a time and
                               materials contract would have been more
                               appropriate. The Service Center, however, did not
                               follow OAM and OST's advice and relied on its
                               interpretation that the FAR did not allow for
                               anything other than a firm-fixed-price contract.

Excessive Cost and             The lengthy process adopted by NNSA to refurbish
Delays, Unmet Mission          the DC-9 aircraft resulted in additional costs and
Requirements                   excessive delays, and negatively affected OST's
                               ability to carry out its mission. Officials at both
                               OST and OAM agreed that significant time and
                               money could have been saved if contracting
                               flexibilities available to NNSA had been used.
                               Although the total amounts of actual excessive costs
                               and delays in time for this contract are difficult to
                               quantify, the Technical Representative at OST that
                               was in charge of this project estimated that
                               approximately $1 million could have been saved by
                               using a time and materials contract. For example,
                               an OST official told us that a time and materials
                               contract would have allowed them to negotiate
                               individual tasks for each phase of the refurbishment
                               and save approximately $583,000. OST added that
                               during the period when the fourth modification was
                               being negotiated it incurred storage costs of $50,000
                               for the aircraft, and costs of $400,000 for storing
                               aircraft components and moving the component
                               inventory to and from the hangar. In addition,
                               because the DC-9 was critical to NNSA's mission,
                               delays in completing the project resulted in the
________________________________________________________________________
Page 4                                                   Details of Finding
                                  acquisition of additional charter services to meet
                                  some of its critical missions. OST also indicated
                                  that some mission needs were not met at all.
                                  As of the date of this report, total costs have more
                                  than doubled, the duration of the project has
                                  approximately tripled, and the project has yet to
                                  meet its original civil air standards requirement for
                                  transporting passengers. The original estimate for
                                  this contract was $3.25 million in costs and six to
                                  eight months to complete, including four months for
                                  the refurbishment contractor to complete its work.
                                  However, actual costs of this project totaled
                                  approximately $6.8 million, including
                                  approximately $6 million for the refurbishment
                                  contractor. The refurbishment contractor ultimately
                                  took about 21 months to perform its work.
                                  Additionally, almost four years after this
                                  refurbishment project began, the DC-9 has yet to be
                                  certified to civil air standards for transporting
                                  passengers as was originally intended because it
                                  lacks a hardened cockpit door. The OST official
                                  responsible for this refurbishment told us that the
                                  aircraft is now capable of meeting 90 percent of the
                                  originally specified requirements. As such, the
                                  additional costs to install the door would be
                                  excessive and would delay the project even further.
                                  Officials at OAM believed that the installation of
                                  the hardened cockpit door would complete the
                                  refurbishment project and allow OST to better
                                  utilize its entire fleet for the intended mission. A
                                  final decision on whether or not to install the door
                                  had not yet been made by the time our audit report
                                  was published.
RECOMMENDATIONS               The issues cited in this report point to weaknesses
                              that should be addressed in light of future plans by
                              OST to replace its entire fleet of DC-9 aircraft with
                              737s starting as early as Fiscal Year 2010. These
                              plans will likely require additional refurbishment
                              projects to bring these aircraft up to the
                              specifications needed for OST to complete its
                              unique mission. The use of proper contracting
                              methods should help minimize the costs and
                              duration of these projects. Accordingly, for future
                              aircraft acquisitions and refurbishments we
                              recommend that the Senior Procurement Executive,
                              NNSA ensure that:
________________________________________________________________________
Page 5                                                          Recommendations
                                1. Uncertainties are minimized for all types of
                                   contracts and to the maximum extent
                                   practicable, the full scope of work necessary
                                   to complete a project is developed before a
                                   firm-fixed-price contract is awarded;
                                2. All available contracting options are
                                   considered in instances where project
                                   requirements cannot be defined with an
                                   acceptable degree of certainty or sufficient
                                   information is not available to award a firm-
                                   fixed-price contract; and,
                                3. Advice and recommendations from the
                                   OAM are obtained as part of the contract
                                   award process.

MANAGEMENT                   Management generally concurred with the report
REACTION                     and agreed to implement the recommendations. In
                             commenting on our official draft report, the NNSA
                             Associate Administrator for Management and
                             Administration stated that NNSA continued to
                             support the original determination that the
                             refurbishment project was commercial work, and as
                             such, a fixed-price contract was required. In
                             addition, NNSA did not agree with the presumption
                             that the scope of the project was unknowable,
                             precluding the development of a more definitive
                             specification and the use of a fixed-price contract.
                             Management's comments, in their entirety, are
                             included as Appendix 3 of this report.

AUDITOR                      Management's comments are responsive to our report.
COMMENTS                     As noted by the aviation experts we consulted, the
                             full scope of the work required for this refurbishment could
                             not have been known until the aircraft was disassembled
                             and fully inspected. Our findings and the opinion of these
                             experts are consistent with an internal NNSA review of the
                             refurbishment which concluded that the work required was
                             not sufficiently defined prior to the contract being awarded.
                             Contrary to NNSA's assertion, we do not believe the extent
                             of the work required could not have been known; only that
                             it was not known or developed prior to awarding a fixed-
                             price contract designed to accomplish the entire
                             refurbishment. While we agree that a fixed-price contract
                             was one option for this project, it was not the only option,
                             and in this case, it turned out not to be the most efficient
                             vehicle available.

________________________________________________________________________
Page 6                                                        Comments
Appendix 1

OBJECTIVE                        The objective of our audit was to determine whether
                                 the Office of Secure Transportation (OST) had an
                                 effective and efficient aviation management
                                 program

SCOPE                            This review was performed between June 2008 and
                                 December 2008 at Headquarters and at the Office of
                                 Secure Transportation, Albuquerque, New Mexico.


METHODOLOGY                      To accomplish the audit objective, we:

                                     •   Reviewed Federal, Department of Energy
                                         (Department) and site specific aviation
                                         related policies and procedures;

                                     •   Interviewed key personnel at this site;

                                     •   Assessed the selected site's compliance with
                                         the applicable federal guidance, internal
                                         aviation policies and Departmental
                                         contracts;

                                     •   Reviewed the acquisition and refurbishment
                                         process of a new aircraft that occurred in
                                         2003;

                                     •   Reviewed internal audit reports and findings
                                         provided by the Office of Aviation
                                         Management (OAM) for the Fiscal Years
                                         2004 through 2007; and,

                                     •   Interviewed key personnel in the OAM.

                              We conducted this performance audit in accordance
                              with generally accepted government auditing
                              standards. Those standards require that we plan and
                              perform the audit to obtain sufficient, appropriate
                              evidence to provide a reasonable basis for our
                              findings and conclusions based on our audit
                              objectives. We believe that the evidence obtained
                              provides a reasonable basis for our findings and
                              conclusions based on our audit objectives. Because
                              our review was limited, it would not necessarily
                              have disclosed all internal deficiencies that may
                              have existed at the time of our audit. During the
                              audit, we assessed the Department's compliance
________________________________________________________________________
Page 7                                     Objective, Scope, and Methodology
Appendix 1 (continued)

                              with the Government Performance and Results Act
                              of 1993 and found that the Department had
                              established specific performance measures. We did
                              not rely on computer processed data. We held our
                              exit conference with NNSA representatives on
                              April 9, 2009.




________________________________________________________________________
Page 8                                  Objective, Scope, and Methodology
Appendix 2

              PRIOR OFFICE OF INSPECTOR GENERAL REPORTS

The Office of Inspector General (OIG) has previously reported on management of the
Department of Energy's (Department) aviation program.

•    The U. S. Department of Energy's Aircraft Activities (DOE/IG-0435, January 1999).
     A review of the Department's aircraft activities was requested by the Secretary. The
     OIG noted a need for increased Departmental management oversight of aviation
     activities. Independent reviews of the continuing need for aircraft were only
     performed on a limited basis, operating costs at the Albuquerque Operations Office
     (Albuquerque) were significantly higher than other locations, Headquarters did not
     validate mission needs when acquiring aircrafts, and information reported to General
     Services Administration significantly understated the Department's use of aircraft
     rentals and charters.

•    Aircraft and Air Service Management Programs (DOE/IG-0437, January 1999). An
     audit was conducted to determine whether costs to operate Albuquerque's aircraft
     were excessive and if individual aircraft in the fleet were justified. The OIG found
     that costs to operate aircraft at Albuquerque were excessive because of the number of
     personnel employed by the air service contractor. In addition, the retention of one
     aircraft by Albuquerque that was used to transport passengers between Albuquerque,
     NM and Amarillo, TX was not justified.

•    Audit of Aircraft Management at the Bonneville Power Administration (CR-B-94-06,
     September 1994). An audit was conducted to determine whether the Bonneville
     Power Administration (Bonneville) established and implemented policies,
     procedures, and controls to manage their aircraft activities efficiently, effectively,
     economically, safely, and in accordance with applicable laws and regulations. The
     OIG found that Bonneville could satisfy its workload with five rather than six
     helicopters and one rather than two airplanes. The OIG recommended that
     Bonneville dispose of one helicopter and one airplane.
 
. 




________________________________________________________________________
Page 9                                                      Prior Reports
Appendix 3


                                              Department of Energy

                                       National Nuclear Security Administration

                                                Washington, DC 20585

                                                  April 29, 2009
          MEMORANDUM FOR:	                Rickey R. Hass
                                          Deputy Inspector General
                                            for Audit Services                  ~/~
          FROM:	                          Michael C.     Kane~         "'/                 r---­
                                          Associate Administrator
                                           For Management and Administration

          SUBJECT:	                       Comments to Draft Report on Aviation Management;
                                          Project No. A08TG060; IDRMS No. 2009-01087

          The National Nuclear Security Administration (NNSA) appreciates the opportunity to
          review the Inspector General's (IG) draft Report, "Management Controls over the
          Department's Aviation Management Program - Office of Secure Transportation." We
          understand that this audit was conducted to determine whether the Office of Secure
          Transportation (OST) had an effective and efficient aviation management program.

          NNSA generally agrees with the report with the following exceptions:

                    1.	 NNSA supports the Contracting Officer's determination that the
                        refurbishment of the DC-9 aircraft was "commercial work."

                    2.	 The Agency supports the Contracting Officer's original determination to
                        contract for the refurbishment services on a fixed-price basis. The fact that
                        the work turned out to be more complex than originally thought does not
                        negate the validity of the decision.

                    3.	 The Agency does not agree with the presumption that the scope of the
                        refurbishment was unknowable precluding development of a more definitive
                        specification and the use of a fixed-price contract type.

          NNSA agrees with the recommendations and will take appropriate action. We will
          provide detailed corrections to the recommendations during the Management Decision
          process.

          Should you have any questions about this response, please contact the Cathy Tullis,
          Acting Director, Policy and Internal Controls Management, at 202-586-3857.

             cc:	 David Boyd, Senior Procurement Executive
                  Joseph Waddell, Head of Contracting Activity
                  Jeffrey Harrell, Acting Associate Deputy Administrator for Secure Transportation
                  Karen Boardman, Director, Service Center




Page 10
                                              *   Printed with soy ink on recycled paper

                                                                                              Management Comments
                                                         IG Report No. DOE/IG-0815__

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
